No._________
IN THE SUPREME COURT OF THE UNITED STATES
___________________________________________
TIMOTHY JAMES THOMPSON,
Petitioner,
v.
JEFF PREMO, Superintendent,
Respondent.
____________________________________________
ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
____________________________________________
PETITION FOR A WRIT OF CERTIORARI
____________________________________________

Oliver W. Loewy
Assistant Federal Public Defender
101 SW Main Street, Suite 1700
Portland, Oregon 97204
(503) 326-2123
Attorney for Petitioner

QUESTION PRESENTED
Whether when assessing prejudice to determine if the default of an
ineffective assistance of trial counsel claim should be excused under Martinez v.
Ryan, 566 U.S. 1 (2012), the idiosyncrasies of the trial judge may be considered?

i

TABLE OF CONTENTS
PAGE
QUESTIONS PRESENTED ...................................................................................... i
OPINIONS BELOW ..................................................................................................1
JURISDICTIONAL STATEMENT ..........................................................................1
STATUTORY PROVISIONS ...................................................................................1
STATEMENT OF THE CASE ..................................................................................2
A.

State Court Proceedings ................................................................................2

B.

Federal Habeas Proceedings..........................................................................3

REASONS FOR GRANTING THE WRIT...............................................................5
CONCLUSION ..........................................................................................................6

ii

APPENDICES
PAGE
A. Ninth Circuit’s Order Denying Certificate of Appealability ............ Appendix 1
B. District Court Order & Opinion......................................................... Appendix 2
C. Objections to Magistrate Judge’s Findings & Recommendation ..... Appendix 4
D. Magistrate Judge’s Findings & Recommendation .......................... Appendix 19

iii

TABLE OF AUTHORITIES
Constitutional Provisions

Cases
Clabourne v. Ryan,
745 F.3d 362 (9th Cir. 2014) ............................................................................... 3
Martinez v. Ryan,
566 U.S. 1 (2012) ............................................................................................. i, 7
Slack v. McDaniel,
529 U.S. 473 (2000) ............................................................................................ 6
State v. Thompson,
278 P.3d 141 (Or. Ct. App. 2012) (table), review denied, 293 P.3d 1045 (Or.
2012) (table) ........................................................................................................ 2
Strickland v. Washington,
466 U.S. 668 (1984) ........................................................................................ 4, 5
Thompson v. Premo,
356 P.3d 682 (Or. Ct. App. 2015) (table), review denied, 364 P.3d 1002 (Or.
2015) (table) ........................................................................................................ 2
Thompson v. Premo,
2020 WL 4572329 (D. Or. Aug. 7, 2020) ........................................................... 4
Statutes
28 U.S.C. § 1254(1) (2012) ..................................................................................... 1
28 U.S.C. § 2253(c)(2) (2012) ................................................................................. 1
Other
Rule 22-1(d) ......................................................................................................... 1, 4

iv

OPINIONS BELOW
The United States District Court for the District of Oregon denied
Mr. Thompson’s petition for writ of habeas corpus in an unpublished opinion and
order. Appendix at 2 (“Opinion and Order”). That Court also denied a Certificate
of Appealability. Id. at 3. Mr. Thompson filed with the United States Court of
Appeals for the Ninth Circuit a Notice of Appeal, which was considered a motion
for a certificate of appealability pursuant to its local Rule 22-1(d), but the Court
denied it. Appendix at 1 (order).
JURISDICTIONAL STATEMENT
This Court has jurisdiction to review this petition for writ of certiorari under
28 U.S.C. § 1254(1) (2012). The Ninth Circuit filed the order sought to be
reviewed on March 5, 2021. Appendix at 1.
STATUTORY PROVISIONS
28 U.S.C. § 2253(c)(1) (2012) provides:
Unless a circuit justice or judge issues a certificate of appealability,
an appeal may not be taken to the court of appeals from—
(A)

the final order in a habeas corpus proceeding in which
the detention complained of arises out of process
issued by a State court . . .

28 U.S.C. § 2253(c)(2) (2012) provides:

1

A certificate of appealability may issue . . . only if the
applicant has made a substantial showing of the denial of a
constitutional right.
STATEMENT OF THE CASE
A.

State Court Proceedings

Mr. Thompson went to jury trial on a multiple-count indictment. At the
close of the state’s evidence, defense counsel moved to acquit Mr. Thompson on
exclusively state-law grounds. Ultimately, Mr. Thompson was convicted of
multiple offenses. Postconviction counsel did not claim that trial counsel was
ineffective in failing to move for judgment of acquittal on federal double jeopardy
or federal due process grounds.
On direct appeal, the Oregon Court of Appeals affirmed without opinion,
and the Oregon Supreme Court denied review. State v. Thompson, 278 P.3d 141
(Or. Ct. App. 2012) (table), review denied, 293 P.3d 1045 (Or. 2012) (table).
Mr. Thompson petitioned for post-conviction relief, but the Oregon triallevel court denied it. The Oregon Court of Appeals affirmed without opinion, and
the Oregon Supreme Court denied review. Thompson v. Premo, 356 P.3d 682 (Or.
Ct. App. 2015) (table), review denied, 364 P.3d 1002 (Or. 2015) (table).

2

B.

Federal Habeas Proceedings

Mr. Thompson timely filed a petition for habeas corpus relief, a Magistrate
Judge was assigned, and counsel was appointed. D. Ct. Dkts. 1 (petition), 3
(assignment notice), & 4 (counsel appointment order). In an amended habeas
petition, Mr. Thompson asserted, among other claims, that trial counsel was
ineffective in failing to seek a judgment of acquittal on double jeopardy and due
process grounds. D. Ct. Dkt. 77 at 8-9 (second amended petition). Respondent
contended that the claim was procedurally defaulted because it was not raised in
state postconviction proceedings and that, therefore, the District Court should not
reach its merits. D. Ct. Dkt. 54 at 2. Mr. Thompson countered that because
postconviction counsel was ineffective in failing to raise the trial counsel
ineffectiveness claim, the District Court should excuse and reach the merits of the
claim. D. Ct. Dkt. 74 at 10-11 (citing to Clabourne v. Ryan, 745 F.3d 362, 377
(9th Cir. 2014) (setting out the test for demonstrating cause and prejudice for
excusing a procedural default due to post-conviction ineffective assistance of
counsel pursuant to Martinez v. Ryan, 566 U.S. 1 (2012)), overruled on other
grounds, McKinney v. Ryan, 813 F.3d 798(2015)).
The Magistrate Judge’s Findings and Recommendation advised against
excusing the default, reasoning that because the trial judge had rejected the
arguments trial counsel did make, the trial judge would also have denied a motion
3

for acquittal based on due process and double jeopardy guarantee violations. D.
Ct. Dkt. 84 at 9-10 (“it is evident that any failure on counsel’s part to base his
motions for judgment of acquittal specifically on due process and double jeopardy
did not prejudice Thompson”).
Mr. Thompson objected that the Magistrate Judge’s reasoning contradicted
this Court’s holding that when analyzing ineffective assistance of counsel claims,
“[t]he assessment of prejudice . . . should not depend on the idiosyncrasies of the
particular decisionmaker.” Strickland v. Washington, 466 U.S. 668, 695 (1984). D.
Ct. Dkt. 92 at 5-6. The Article III judge adopted the Magistrate Judge’s Findings
& Recommendation, denied relief, and denied a Certificate of Appealability
(“COA”). Exhibit at 2 (Thompson v. Premo, 2020 WL 4572329 (D. Or. Aug. 7,
2020) (Opinion and Order)).
Mr. Thompson filed a Notice of Appeal. D. Ct. Dkt. 96. On March 5, 2021,
the Ninth Circuit Court of Appeals denied a COA. Exhibit at 1 (Thompson v.
Premo, No. 20-35777 (9th Cir. March 5, 2021)). Under Ninth Circuit Local Rule
22-1(d), Petitioner’s Notice of Appeal constituted a request for a COA. Id. (“If
appellant does not file a COA request with the court of appeals after the district
court denies a COA in full, the court of appeals will deem the notice of appeal to
constitute a request for a COA.”).

4

REASONS FOR GRANTING THE WRIT

This Court has long held that assessing whether trial counsel’s deficient
performance prejudiced a defendant “should . . . not depend on the idiosyncrasies
of the particular decisionmaker [, but] should proceed on the assumption that the
decisionmaker is reasonably, conscientiously, and impartially applying the
standards that govern the decision.” Strickland v. Washington, 466 U.S. 668, 695
(1984). Whether Strickland’s prohibition against considering the idiosyncrasies of
the particular decisionmaker applies in determining, under Martinez v. Ryan,
whether postconviction counsel’s ineffectiveness should excuse the default of an
ineffective assistance of trial counsel claim is an important federal question
because the answer dictates how Martinez v. Ryan is applied to determine whether
federal courts may reach the merits of procedurally defaulted ineffective assistance
of trial counsel claims. As this case illustrates, the court below has eroded this
Court’s requirement that the idiosyncrasies of the decisionmaker should play no
role in assessing prejudice.
The Ninth Circuit denied a COA on whether, in declining to excuse under
Martinez v. Ryan the default of a claim that trial counsel was ineffective in failing
to seek a judgment of acquittal on federal due process and double jeopardy
grounds, the District Court erred by relying on the trial judge’s rulings to find that
he would have rejected the omitted arguments had they been made.
5

There can be no question that, if Strickland’s prohibition against considering
the idiosyncrasies of the trial judge when assessing prejudice applies when
determining whether to excuse a procedural default under Martinez v. Ryan, a
COA was warranted because “[1] jurists of reason would find it debatable whether
the petition states a valid claim of the denial of a constitutional right and [2] that
jurists of reason would find it debatable whether the district court was correct in its
procedural ruling.” Slack v. McDaniel, 529 U.S. 473, 484 (2000). Given the
District Court’s adopting the Magistrate Judge’s Findings and Recommendation,
and Petitioner’s objection to the Magistrate Judge’s reliance on the trial judge’s
idiosyncrasies, the Ninth Circuit’s refusal to grant a COA reflects a determination
that the pertinent Strickland prohibition does not apply when determining whether
to excuse a default under Martinez v. Ryan.
CONCLUSION
For these reasons, this Court should grant certiorari and either entertain
briefing on the question presented or, alternatively, remand to the Ninth Circuit
with instructions to issue a Certificate of Appealability on whether the District
Court erred by considering the idiosyncrasies of the trial judge when assessing

6

prejudice to determine if the default of the ineffective assistance of trial counsel
claim should be excused under Martinez v. Ryan, 566 U.S. 1 (2012).
Respectfully submitted on June 4, 2021.
/s/ Oliver W. Loewy
Oliver W. Loewy
Assistant Federal Public Defender
Attorney for Petitioner

7

APPENDICES

Case: 20-35777, 03/05/2021, ID: 12025655, DktEntry: 2, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
MAR 5 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

TIMOTHY JAMES THOMPSON,
Petitioner-Appellant,
v.
JEFF PREMO, Superintendent,

No.

20-35777

D.C. No. 6:16-cv-00413-AC
District of Oregon,
Eugene
ORDER

Respondent-Appellee.
Before:

CANBY and VANDYKE, Circuit Judges.

The request for a certificate of appealability is denied because appellant has
not shown that “jurists of reason would find it debatable whether the petition states
a valid claim of the denial of a constitutional right and that jurists of reason would
find it debatable whether the district court was correct in its procedural ruling.”
Slack v. McDaniel, 529 U.S. 473, 484 (2000); see also 28 U.S.C. § 2253(c)(2);
Gonzalez v. Thaler, 565 U.S. 134, 140-41 (2012); Miller-El v. Cockrell, 537 U.S.
322, 327 (2003).
Any pending motions are denied as moot.
DENIED.

Appendix, Page 1

Case 6:16-cv-00413-AC

Document 94

Filed 08/07/20

Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF OREGON

TIMOTHY THOMPSON,
Case No. 6:16-cv-00413-AC
Petitioner,
OPINION AND ORDER
v.
JEFF PREMO, State of Oregon,
Respondent.

MOSMAN, J.,
On April 27, 2020, Magistrate Judge John V. Acosta issued his Findings and
Recommendation (“F&R”) [ECF 84], recommending that this court deny Petitioner’s Second
Amendment Petition for Writ of Habeas Corpus [ECF 77] and dismiss this case with prejudice.
Petitioner objected. [ECF 92]. Respondent filed a response. [ECF 93]. Upon review, I agree with
Judge Acosta, and I DENY the petition.
DISCUSSION
The magistrate judge makes only recommendations to the court, to which any party may
file written objections. The court is not bound by the recommendations of the magistrate judge
but retains responsibility for making the final determination. The court is generally required to
make a de novo determination regarding those portions of the report or specified findings or
recommendation as to which an objection is made. 28 U.S.C. § 636(b)(1)(C). However, the court
is not required to review, de novo or under any other standard, the factual or legal conclusions of
1 – OPINION AND ORDER
Appendix, Page 2

Case 6:16-cv-00413-AC

Document 94

Filed 08/07/20

Page 2 of 2

the magistrate judge as to those portions of the F&R to which no objections are addressed. See
Thomas v. Arn, 474 U.S. 140, 149 (1985); United States v. Reyna-Tapia, 328 F.3d 1114, 1121
(9th Cir. 2003). While the level of scrutiny under which I am required to review the F&R
depends on whether or not objections have been filed, in either case, I am free to accept, reject,
or modify any part of the F&R. 28 U.S.C. § 636(b)(1)(C).
CONCLUSION
Upon review, I agree with Judge Acosta’s recommendation and I ADOPT the F&R [84].
I DENY Petitioner’s Second Petition for Writ of Habeas Corpus [77] and DISMISS this case
with prejudice. Because Petitioner has not made a substantial showing of the denial of a
constitutional right, I DECLINE to issue a certificate of appealability. 28 U.S.C. § 2253(c)(2).
IT IS SO ORDERED.
DATED this 7 day of August, 2020.
____________________________
MICHAEL W. MOSMAN
United States District Judge

2 – OPINION AND ORDER
Appendix, Page 3

Case 6:16-cv-00413-AC

Document 92

Filed 07/10/20

Page 1 of 15

Oliver W. Loewy
Assistant Federal Public Defender
Email: oliver_loewy@fd.org
101 SW Main Street, Suite 1700
Portland, OR 97204
Tel: (503) 326-2123
Fax: (503) 326-5524
Attorney for Petitioner

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF OREGON

TIMOTHY JAMES THOMPSON,
Petitioner,
v.

Case No. 6:16-cv-00413-AC
OBJECTIONS TO MAGISTRATE
JUDGE’S FINDINGS AND
RECOMMENDATION

JERI TAYLOR, Superintendent,
Eastern Oregon Correctional
Institution,
Respondent.
Mr. Timothy Thompson, through counsel and pursuant to 28 United States Code Section
636 (b)(1) hereby makes the following objections to the Findings and Recommendation (“F&R”)
of the Honorable John V. Acosta, United States Magistrate Judge for the District of Oregon. In
support of these objections, Mr. Thompson fully incorporates by reference his Brief in Support
of First Amended Petition for Writ of Habeas Corpus (Dkt. 41), Petitioner’s Reply to
Respondent’s Response (Dkt. 74), and his Reply to Response to Second Amended Petition for
Wirt of Habeas Corpus (Dkt. 83).

Appendix, Page 4

Case 6:16-cv-00413-AC

Document 92

Filed 07/10/20

Page 2 of 15

BACKGROUND
In July 2009, a Washington County, Oregon, grand jury returned a twenty-nine count
indictment against Mr. Thompson, charging him with ten counts of Fourth Degree Assault (ORS
163.160(3)), fifteen counts of Second Degree Assault (ORS 163.175 (1)(b)), three counts of First
Degree Mistreatment (ORS 163.205), and one count of Felony Unlawful Possession of
Marijuana (ORS 475.864). After a bench trial, Mr. Thompson was convicted of eight counts of
Second Degree Assault (Counts 18-25), one count of First Degree Criminal Mistreatment (Count
28), and one count of Non-Felony Unlawful Possession of Marijuana, a violation and not a crime
(Count 29).
All of the assault counts charged that Mr. Thompson had assaulted his wife,
Ms. Thompson. At issue are Mr. Thompson’s first and third claims in his habeas petition
challenging Counts 18-22 and 24, each of which charged Second Degree Assault by means of a
piece of wood. The sole difference between the counts is the charged date during which the
assault allegedly occurred. Each of Counts 18-22 and 23 charged a one-week date range, and
Count 24 charged a particular date.1 While there was substantial trial record evidence of
Ms. Thompson’s physical injury, there was a total lack of evidence supporting a finding that
Mr. Thompson physically injured her on any of the charged dates or that he used a piece of wood
to physically injure her as charged in Counts 18-22 and 24. This is because there was no
evidence beyond a reasonable doubt that he caused her substantial pain or impaired her physical
condition on any of those dates, an element of Second Degree Assault, or that he did so using a
1

The date range for Count 18 was between May 18, 2009, and May 24, 2009; for Count 19,
between June 15, 2009, and June 21, 2009; for Count 20, between June 22, 2009, and June 28,
2009; for 21, between June 29, 2009, and July 5, 2009; for Count 22, between July 6, 2009, and
July 12, 2009; and, for Count 24, on or about July 20, 2009. Dkt. 20-1 at 12-13 (Indictment).
Page 2 OBJECTIONS TO MAGISTRATE JUDGE’S FINDINGS AND RECOMMENDATION

Appendix, Page 5

Case 6:16-cv-00413-AC

Document 92

Filed 07/10/20

Page 3 of 15

piece of wood as charged in the Indictment. Accordingly, the convictions on those counts
violate due process, and the state court’s finding to the contrary unreasonably applied both In Re
Winship, 397 U.S. 358 (1970), and Jackson v. Virginia, 443 U.S. 307 (1979). Additionally,
because it was not possible to identify the particular acts for which Mr. Thompson was
convicted, his convictions violate his Fifth Amendment right against Double Jeopardy. Russell
v. United States, 369 U.S. 749 (1962); Valentine v. Konteh, 395 F.3d 626, 634-35 (6th Cir.
2005).
Magistrate Judge Acosta erred in several respects in finding that Mr. Thompson should
be denied relief on his habeas petition Claim One and Claim Three, each of which concerns
Counts 18-22 and 24. Claim One asserts that the trial evidence was insufficient to prove guilt
beyond a reasonable doubt and to identify the criminal acts for which he was convicted, in
violation of Mr. Thompson’s Fourteenth Amendment right to due process and Fifth Amendment
right against double jeopardy. Second Amended Petition at 4. Claim Three includes the
corresponding ineffective assistance of trial counsel (“IATC”) claims, viz., that trial counsel was
ineffective in failing to seek relief on federal constitutional due process and double jeopardy
grounds. Id. at 7.
I.

FIRST OBJECTION
Mr. Thompson objects to the finding “that any claim of ineffective assistance of counsel

for failing to base a motion for judgment of acquittal on double jeopardy and due process
grounds, is not substantial under Martinez.”2 F&R at 9. Based on this finding, Magistrate Judge
Acosta declined to excuse the procedural default of Claim Three—that trial counsel was

2

Martinez v. Ryan, 566 U.S. 1 (2012).

Page 3 OBJECTIONS TO MAGISTRATE JUDGE’S FINDINGS AND RECOMMENDATION

Appendix, Page 6

Case 6:16-cv-00413-AC

Document 92

Filed 07/10/20

Page 4 of 15

ineffective in failing, among other things, to move to acquit Mr. Thompson on due process and
double jeopardy grounds—and found that it should be denied as procedurally defaulted. Id. at
10. Magistrate Judge Acosta based his conclusion that the claim is not substantial on two
grounds. First, he based it on his analysis of the double jeopardy and due process stand-alone
claim, i.e., Claim One, and his conclusion that it fails. Second, he based it on his belief that the
trial court would have denied the motion to acquit on double jeopardy and due process grounds
because that specific judge rejected the arguments that trial counsel did make. Neither basis is a
valid ground for finding that the IATC claim is not substantial under Martinez.
A.

In Finding That Claim Three Is Not A “Substantial” IATC Claim Because
Its Corresponding Stand-Alone Double Jeopardy And Due Process Claim
(Claim One) Is Without Merit, The Magistrate Judge Imposed Too High Of
A Burden On Mr. Thompson To Establish That His Procedural Default
Should Be Excused.

In Ramirez v. Ryan, 937 F.3d 1230 (9th Cir. 2019), the Ninth Circuit held that it is error
for a district court to find that an IATC claim is not substantial for Martinez purposes based on
its assessment that the claim fails on the merits. Id. at 1242. It is error, the Court reasoned,
because it “hold[s] [the petitioner] to a higher burden than required in the Martinez procedural
default context.” Id. This is precisely what the Magistrate Judge did when he determined that
Mr. Thompson’s IATC claim (Claim Three) is not substantial based on “a review of the record
and the analysis of Claim One (see below),” i.e., the corresponding stand-alone double jeopardy
and due process claims. F&R at 9. Because the referenced analysis was of the merits of Claim
One, concluding that the claim did not warrant relief, the Magistrate Judge’s finding that the
IATC claim is not substantial placed too high a burden on Mr. Thompson to demonstrate that
IATC claim’s procedural default should be excused. This would be true even if the Magistrate
Judge had reviewed de novo Claim One. However, in analyzing the merits of Claim One, he
Page 4 OBJECTIONS TO MAGISTRATE JUDGE’S FINDINGS AND RECOMMENDATION

Appendix, Page 7

Case 6:16-cv-00413-AC

Document 92

Filed 07/10/20

Page 5 of 15

doubly deferred to the trial court’s findings. First, he “presume[d]. . . that the trier of fact
resolved any [conflicting inference which the evidence may have supported] in favor of the
prosecution, and . . . defer[red] to that resolution.” F&R at 12 (quoting Jackson v. Virginia, 443
U.S. 307, 326 (1979). Second, the Magistrate Judge applied 28 U.S.C. § 2254 (d) to require that
“the state court unreasonably applied the principles underlying the Jackson standard” before
granting habeas relief. F&R at 12. See also F&R at 18 (“conclud[ing] that Thompson cannot
demonstrate [as § 2254 (d) requires for claims adjudicated in state court] that the Oregon court’s
denial of this due process claim was contrary to or involved an unreasonable application of
Jackson, or that it was based on an unreasonable determination of the facts in light of the
evidence presented in State court”).
B.

In Determining That Mr. Thompson’s IATC Claim Was Not Substantial,
The Magistrate Judge Violated The Supreme Court’s Holding That The
Assessment Of Prejudice Must Be Objective Rather Than An Assessment Of
How This Particular Trial Judge Would Have Ruled.

The Supreme Court has long held that, in considering IATC claims, “[t]he assessment of
prejudice . . . should not depend on the idiosyncrasies of the particular decisionmaker.”
Strickland v. Washington, 466 U.S. 668, 695 (1984). See, also, White v. Ryan, 895 F.3d 641,
670-71 (9th Cir. 2018) (“test for prejudice is an objective one” and “PCR court erred by applying
a subjective test”). In the instant case, the Magistrate Judge determined that Claim Three was
not a substantial IATC claim, reasoning: “At a minimum, given the arguments counsel presented
to the trial court, it is evident that any failure on counsel’s part to base his motions for judgment
of acquittal specifically on due process and double jeopardy did not prejudice Thompson.” F&R
at 9-10 (footnote omitted). By determining that Mr. Thompson could not prove prejudice
because the trial court would not have granted the motions for judgment of acquittal, Magistrate
Page 5 OBJECTIONS TO MAGISTRATE JUDGE’S FINDINGS AND RECOMMENDATION

Appendix, Page 8

Case 6:16-cv-00413-AC

Document 92

Filed 07/10/20

Page 6 of 15

Judge Acosta did not heed the Strickland requirement that courts assess objectively whether
prejudice establishing IATC exists.
II.

SECOND OBJECTION
Mr. Thompson objects to the Magistrate Judge’s finding “even on de novo review the

IATC claim set forth in Claim Three should be denied on its merits.” F&R at 10. The F&R
provides no reasoning supporting this conclusion.
Counts 18-22 and 24 each charged that Mr. Thompson “did unlawfully and intentionally
cause physical injury to Susan Thompson by means of a dangerous weapon, to wit: a piece of
wood.” Dkt. 20-1 at 3-4 (Indictment). The sole difference between the counts was the date
range during which (or, respecting Count 24, the particular date on which) the charged assault
occurred. Oregon law defines the “physical injury” element as “impairment of physical
condition or substantial pain.” ORS § 161.015 (7). The prosecution failed to present evidence
that Mr. Thompson caused physical injury to Ms. Thompson on six particular occasions. True,
Ms. Thompson testified at trial that Mr. Thompson struck her “a couple of times a week between
April and when the defendant was arrested, except for a two-to-three-week period at the end of
May into June[,]” Dkt. 21-1 (“Transcript”) at 161, and that some of those incidents caused her
substantial pain. However, she did not testify how many of the incidents caused substantial pain,
nor did she specify any particular incident that did. Thus, in answering the prosecutor’s
questions about “beatings,” a term that the prosecutor introduced (see Transcript at 151-55),
Ms. Thompson testified that there were at least three degrees of “beatings.” Her descriptions of
the different kinds of “beating” leaves no doubt that some of the “beatings” would not cause
physical injury. Specifically, Ms. Thompson testified that sometimes she “only got a few
swats”; other times it was “a pretty good whipping, but nothing that was over the top”; still other
Page 6 OBJECTIONS TO MAGISTRATE JUDGE’S FINDINGS AND RECOMMENDATION

Appendix, Page 9

Case 6:16-cv-00413-AC

Document 92

Filed 07/10/20

Page 7 of 15

times she suffered the “ultimate beating as far as number of lashes.” Id. at 154-55.
Ms. Thompson did not testify regarding the degree or duration of any pain suffered consequent
to any of these, nor did she testify that she suffered any more than “only . . . a few swats” on any
of the dates charged in Counts 18-22 and 24.
As a matter of Oregon law, substantial pain can no more be inferred from “a few swats”
than it can be inferred from clumps of hair being pulled out of a victim’s head, State v. Lewis,
337 P.3d 199, 203 (Or. Ct. App. 2014); or from bruising absent testimony of associated pain,
State v. Rennells, 291 P.3d 777, 781 (Or. Ct. App. 2012); or from a blow using a gas can absent
any evidence indicating the “degree of the pain” or that the pain was “anything more than a
fleeting sensation,” State v. Capwell, 627 P.2d 905, 907 (Or. Ct. App. 1981). There is no
question that the record lacks sufficient evidence to support a finding beyond a reasonable doubt
that Mr. Thompson caused that degree and duration of pain constituting substantial pain to
Ms. Thompson during any of the particular charged date ranges. Thus, no rational trier of fact
could find beyond a reasonable doubt from Ms. Thompson’s testimony that she suffered
substantial pain on any of those dates.
While Magistrate Judge Acosta provides no reason why he concluded that, on de novo
review, Claim Three should be denied on its merits, he does quote the trial judge’s reasons for
denying what trial counsel denominated as a motion for acquittal. Magistrate Judge Acosta
concludes that “Thompson cannot demonstrate that trial court unreasonably applied Jackson
when it concluded on the evidence summarized above that there was sufficient evidence to prove
each of these counts beyond a reasonable doubt.” F&R at 17. The trial court summary as
presented by the F&R addressed whether the prosecution had met its burden respecting Counts
18-22 and 24 as follows:
Page 7 OBJECTIONS TO MAGISTRATE JUDGE’S FINDINGS AND RECOMMENDATION

Appendix, Page 10

Case 6:16-cv-00413-AC

Document 92

Filed 07/10/20

Page 8 of 15

[Referencing testimony from Kouzes regarding Susan's statements to the grand
jury, the court stated:] [Susan] says that it happened every day - it happened
every day one week without - and there was a week or so without a beating,
and that - the only time we hear about this absence of beating is when she's when we're talking about the Assault II charges, not the Assault IV charges. So
that happening every -once a week, and that's how the Assault II charges are
drafted, makes me think that she was talking about the Assault II, the stick
incidents, because it doesn't connect up otherwise.
***
[From the medical records, court noted:] DHS and police talking with patient.
Severe bruising, hematomas present on bilateral legs, wrists, hands and
buttocks. Patient states there has been ongoing abuse for five years. Current
injuries ongoing for last two months. Children were present in the house
during assault. Patient states husband was striking her with branches from an
apple tree. * * * So I know from the medical records that it's been going on for
five years and that the bruising and injuries that she has were from the last two
months, and that has to do with the Assault II, not the Assault IV' s.
***
[W]hen I turn to the restraining order, I have an incident that talks about July
21st, I have an incident that talks about July 16th, and then I have this
statement: "The physical abuse was daily, weekly, continuously. He made sure
that bruises were only on my legs, hips, and where my clothing would cover
it."
***
It was clear that she -from all of this that I've been talking about that the
defendant caused all of her injuries while she was at the hospital, that
beginning April of '09 she was beat at least once, maybe a couple times a
week, she said yes to that, and she said except for that two- or three-week
period of time at the end of May.
Now, the next question is that again we have no evidence concerning the actual
incidences that caused the physical injury, like for instance we don’t know
what injury was caused between April 1st, 2009 to April 5th, 2009, we have no
idea. We have no idea what injury was caused between April 6, 2009 and
April 11, 2009, and so forth and so on.
However, we do have photographs that were taken from the hospital, and we
do know from the medical records that those injuries were the injuries that
Page 8 OBJECTIONS TO MAGISTRATE JUDGE’S FINDINGS AND RECOMMENDATION

Appendix, Page 11

Case 6:16-cv-00413-AC

Document 92

Filed 07/10/20

Page 9 of 15

were caused over the last two months, and it can be inferred clearly that those
injuries that were reflected in the medical records and the photographs caused
her physical injury.
So it seems to me that the State has met its burden with regard to the Assault in
the Second Degree starting with Count 18, May 18th through May 24th, would
be the two months prior to the time she goes to the hospital where there are
facts that are articulated that support each and every charge once a week.
F&R at 13-14 (quoting Dkt. 21 at 58-67). Magistrate Judge Acosta also relied on the trial court’s
explanation for its finding Mr. Thompson guilty of the relevant counts. In particular, quotes that
explanation:
[T]here was testimony from the grand jury and testimony from Ms. Thompson
that this abuse occurred weekly, so I find that there was sufficient evidence to
prove beyond a reasonable doubt that this occurred weekly from May 18th,
2009, except for the break in time between Count 18 and Count 19, and
therefor through Count 25.
The next issue that is - we have to show is whether or not defendant
intentionally caused physical injury to Susan Thompson. There's no question in
my mind that this was intentional behavior. * * * This is strictly just sadistic
behavior, and the defendant did cause physical injury to Ms. Thompson, and
the reason why I say that is because the medical records are quite clear that and Dr. Alexander's testimony is quite clear that the injuries were blunt trauma,
and that the injuries were ongoing for the last two months per Ms. Thompson,
and that this was consistent with the injuries. * * * Physical injury means
substantial pain or impairment of physical condition. Defendant testified that
he hit her hard. There's no question that being hit hard with those types of
sticks that were in evidence, or similar sticks, or switches, certainly would
cause physical injury.* * * There's a dispute whether or not these were the
same sticks that were used for all of the Counts 18 through 25 and whether
those sticks were considered dangerous weapons, but if you look at the injuries
that are reflected over the last couple of months, anything that would cause
those types of injuries would be I believe dangerous weapons, and I'm making
that inference.
So I am finding the defendant guilty of Assault in the Second Degree on
Counts 18 through 25.
F&R at 14-15 (quoting Dkt. 21 at 124-27).

Page 9 OBJECTIONS TO MAGISTRATE JUDGE’S FINDINGS AND RECOMMENDATION

Appendix, Page 12

Case 6:16-cv-00413-AC

Document 92

Filed 07/10/20

Page 10 of 15

While this evidence is unquestionably sufficient to find that Ms. Thompson suffered
physical injury sometime between the earliest and latest dates charged in the relevant counts (i.e.,
between May 18, 2009, and July 20, 2009), it contains—as the trial court acknowledged—“no
evidence concerning the actual incidences that caused the physical injury[.]” Dkt. 21-2 at 66.
Based on the medical records and hospital photographs depicting injuries to Ms. Thompson, the
trial court found that “it can be inferred clearly that those injuries were the injuries that were
caused over the last two months[.]” F&R at 14. The evidence, however, does not allow a
reasonable inference that the physical injury was caused during some particular date ranges, or
on any specific date, as charged in the Indictment. Nor does it allow a reasonable inference that,
regardless of when they occurred, there were six particular instances of assault causing physical
injury. There is an obvious and important difference between proving that someone has been
assaulted and suffered physical injury during a two month period and proving that there was an
assault with physical injury at least once each week over that two month period. While the
evidence allows an inference that Mr. Thompson assaulted and caused physical injury to
Ms. Thompson over the range of time charged in the multiple counts, it contains nothing
allowing an inference as to when the physical injury occurred during that two-month period.
The Ninth Circuit has repeatedly held that while reasonable inferences are permitted, not
all inferences are reasonable. “Speculation and conjecture cannot take the place of reasonable
inferences and evidence[.]” Juan H. v. Allen, 408 F.3d 1262, 1279 (9th Cir. 2005). In Juan H.,
the Ninth Circuit reversed the petitioner’s first degree murder and attempted first degree murder
juvenile adjudications under an aiding and abetting theory because, viewed in the light most
favorable to the prosecution, the evidence did not permit a reasonable inference that the
petitioner knew that the triggerman planned to commit the first degree murders. Id. at 1277Page 10 OBJECTIONS TO MAGISTRATE JUDGE’S FINDINGS AND RECOMMENDATION

Appendix, Page 13

Case 6:16-cv-00413-AC

Document 92

Filed 07/10/20

Page 11 of 15

1278. See also Maquiz v. Hedgpeth, 907 F.3d 1212, 1220-1222 (9th Cir. 2018) (insufficient
evidence supporting gang sentence enhancement, as state court unreasonably inferred the
findings necessary for the enhancement); Goldyn v. Hayes, 444 F.3d 1062, 1070 (9th Cir. 2006)
(reversing felony and misdemeanor bad check convictions and consequent five habitual offender
life sentences because state court unreasonably concluded that the evidence was sufficient to
prove that petitioner wrote bad checks); Garcia v. Carey, 395 F.3d 1099, 1103 (9th Cir. 2005)
(reversing sentence enhancement because insufficient evidence: “we agree with the federal
magistrate that there is absolutely nothing in this record which would support an inference that
[petitioner] robbed [the victim] in order to facilitate other gang related criminal operations”);
O’Laughlin v. O’Brien, 568 F.3d 287, 305 (1st Cir. 2009) (“piling inference upon inference does
not amount to proof beyond a reasonable doubt”; reversing four felony convictions, including
armed assault with intent to murder based on insufficiency of the evidence).
Mr. Thompson’s convictions on those counts, therefore, violated his due process right to
conviction upon sufficient evidence. Jackson v. Virginia, 443 U.S. 307 (1979) (“essential [to]
due process guaranteed by the Fourteenth Amendment [is] that no person shall be made to suffer
the onus of a criminal conviction except upon sufficient proof”). For this same reason, the
convictions also violated Mr. Thompson’s Fifth Amendment right against double jeopardy
because there was a “very real possibility that [Mr. Thompson] would be subject to double
jeopardy in his initial trial by being punished multiple times for what may have been the same
offense.” Valentine v. Konteh, 395 F.3d 626, 634-35 (6th Cir. 2005).
Furthermore, the trial court unreasonably inferred that the each of the charged offenses in
Counts 18-22 and 24 was committed “by means of a dangerous weapon, to-wit: a piece of
wood.” Dkt. 20-1 at 3-4 (Indictment). Magistrate Judge Acosta found that the trial court
Page 11 OBJECTIONS TO MAGISTRATE JUDGE’S FINDINGS AND RECOMMENDATION

Appendix, Page 14

Case 6:16-cv-00413-AC

Document 92

Filed 07/10/20

Page 12 of 15

reasonably inferred that element from the injuries. However, even assuming that Mr. Thompson
did assault Ms. Thompson on six different occasions, there was insufficient evidence to prove
beyond a reasonable doubt that Mr. Thompson assaulted her on each of those dates “by means of
a dangerous weapon, to-wit: a piece of wood.” Further—still assuming that six different assaults
occurred—while sticks were seized from the home and Ms. Thompson testified that
Mr. Thompson had sometimes spanked her with them, there was no evidence presented that
Mr. Thompson used “a piece of wood” on each specified date. Just as the “inference” of
physical evidence was actually speculation, it was speculation rather than an “inference” that a
piece of wood was used for each charged assault.
III.

THIRD OBJECTION

Mr. Thompson objects to the Magistrate Judge’s disposing of procedurally defaulted Claim
One by engaging in analysis reserved for claims adjudicated in state court. Specifically, the
F&R applies Section 2254 (d) deference to find that habeas relief is unavailable on the grounds
that trial counsel relied on in moving for a judgment of acquittal. However, as the Magistrate
Judge acknowledges, trial counsel did not move for a judgment of acquittal on double jeopardy
and due process grounds. F&R at 9 (given that trial court denied motion to acquit on grounds
trial counsel did assert, it would not have granted the motion had trial counsel asserted double
jeopardy and due process grounds). Because the state courts did not adjudicate Claim One on its
merits, Section 2254 (d) is inapplicable.
To the extent that Magistrate Judge Acosta determined that Claim One was adjudicated in the
Oregon state courts, Mr. Thompson objects to that determination. Trial counsel did move to
acquit Mr. Thompson but not on the federal constitutional double jeopardy and due process
grounds which form the basis of Claim One. Instead, the closest trial counsel came to moving to
Page 12 OBJECTIONS TO MAGISTRATE JUDGE’S FINDINGS AND RECOMMENDATION

Appendix, Page 15

Case 6:16-cv-00413-AC

Document 92

Filed 07/10/20

Page 13 of 15

acquit on those federal grounds was his assertion not that the Court should acquit but that it
should order the prosecution to elect which conduct proves each count, and, further, did not
mention or even allude to any due process or double jeopardy basis for that assertion:
And so I guess, Your Honor, there’s been a lot of testimony, and I’ve had a
hard time putting together which facts the State is relying on to support which
count, which specific instance, and I think that’s the burden on the State. It’s
not enough to say, “Oh, this happened a lot,” or you know, “This happened
many times.”
The State has to prove beyond a reasonable doubt – well, even at this point has
to prove, give some evidence of each specific instance so that Your Honor can
differentiate between those and judge them accordingly.
And so at this point I would be asking the State to elect which conduct it’s
alleging proves which count because there’s some confusion as far as the
defense to, you know, which conduct that’s been testified goes to which count.
Tr. at 45-46. This cannot fairly be construed as a motion to acquit, let alone a motion to acquit
on federal due process grounds and double jeopardy grounds. Thus, the F&R’s conclusion that
habeas relief should be denied because “Thompson cannot demonstrate that the Oregon court’s
denial of this due process claim was contrary to or involved an unreasonable application of
Jackson, or that it was based on an unreasonable determination of the facts in light of the
evidence presented in State Court” is wrong because the Oregon courts did not adjudicate Claim
One. Even were the request that the Court order the prosecution to elect construed as a motion to
acquit, at no time did trial counsel reference any federal constitutional ground. For this reason,
too, the claim the trial court adjudicated is not the habeas petition’s Claim One. Claim One,
never presented to the state courts, is procedurally defaulted.
Mr. Thompson argued before Magistrate Judge Acosta that Claim One is procedurally
defaulted, but that the default should be excused under Martinez v. Ryan. If the default is
excused, of course, the Court must review it de novo as there is no state court decision to which
Page 13 OBJECTIONS TO MAGISTRATE JUDGE’S FINDINGS AND RECOMMENDATION

Appendix, Page 16

Case 6:16-cv-00413-AC

Document 92

Filed 07/10/20

Page 14 of 15

the Court could defer. Murphy v. Royal, 875 F.3d 896, 925 (10th Cir. 2017) (“If the state court
did not adjudicate the claim ‘on the merits,’ there is no decision to which the federal court can
defer.”); Shotts v. Wetzel, 724 F.3d 364, 375 (3rd Cir. 2013) (“Deference is not owed in this case,
however, because there was no decision on the merits.”); Reaves v. Secretary, Fla. Dept. of
Corrections, 717 F.3d 886, 900 (11th Cir. 2013) (“because the Florida Supreme court did not
each the issue of prejudice there is no decision on that issue to which we could defer”); Cristini
v. McKee, 526 F.3d 888, 899 (6th Cir. 2008) (“Since there is no decision on the merits . . ., this
Court reviews that issue de novo”); Turner v. Hall, 2007 WL 1575240 at *10 (D. Or. 2007)
(Aiken, J.) (“Because there is no decision to which I can defer, the court conducts an
independent review of the record with respect to this claim.”); Stevenson v. Hill, 2007 WL
987453 at *5 (D. Or. 2007) (same) (Mosman, J.); See also, Dawson v. Marshall, 561 F.3d 930,
933 (9th Cir. 2009) (“De novo review means that the reviewing court ‘do[es] not defer to the
lower court’s ruling but freely consider[s] the matter anew, as if no decision had been rendered
below’”) (quoting United States v. Silverman, 861 F.2d 571, 576 (9th Cir. 1988)). As explained
above, Magistrate Judge Acosta’s determination that Martinez is of no help to Mr. Thompson is
fatally flawed. First, it assigned too high a burden to Mr. Thompson. Second, he determined
that there was no prejudice based on an assessment of how Mr. Thompson’s trial judge, rather
than an objective decisionmaker, would have ruled on a motion to acquit grounded in the due
process and double jeopardy federal constitutional guarantees. Thus, the determination that the
procedural default of Claim One should not be excused is erroneous.
IV.

FOURTH OBJECTION

Mr. Thompson objects to the Magistrate Judge’s conclusion that Valentine v. Konteh, 395
F.3d 626 (6th Cir. 2005), should not be relied on because it is a Sixth Circuit rather than a Ninth
Page 14 OBJECTIONS TO MAGISTRATE JUDGE’S FINDINGS AND RECOMMENDATION

Appendix, Page 17

Case 6:16-cv-00413-AC

Document 92

Filed 07/10/20

Page 15 of 15

Circuit Court of Appeal case and because it is “factually distinguishable.” F&R at 16. While
Valentine does not control the outcome in this case, the Court should consider its guidance. This
is particularly so because though, as Magistrate Judge Acosta notes, “the trial judge, sitting as
fact finder, articulated which counts the state was able to prove beyond a reasonable doubt and
why,” the trial judge did not in any way address Mr. Thompson’s contention that the record does
not contain any direct or circumstantial evidence that he caused Ms. Thompson to suffer physical
injury—defined as “impairment of physical condition or substantial pain,” ORS § 161.015(7)—
each time he assaulted her. See supra at 6-11. Without knowing on which occasions
Mr. Thompson caused physical injury, the trial court could not have “discerned the evidence that
supports each individual conviction.” Valentine, 395 F.3d at 637. For this reason, there is no
way to know “what double jeopardy would prohibit because we cannot be sure what factual
incidents were presented and decided by the [factfinder].” Id. at 635.
CONCLUSION
For all these reasons and those in earlier briefing, the Court should reject the Findings
and Recommendation and grant habeas relief on Claims One and Three.
Respectfully submitted on July 10, 2020.

/s/ Oliver W. Loewy______________
Oliver W. Loewy
Attorney for Petitioner Thompson

Page 15 OBJECTIONS TO MAGISTRATE JUDGE’S FINDINGS AND RECOMMENDATION

Appendix, Page 18

Case 6:16-cv-00413-AC

Document 84

Filed 04/27/20

Page 1 of 19

UNITED STATES DISTRICT COURT
DISTRICT OF OREGON

TIMOTHY JAMES THOMPSON,
Petitioner,

)
)

Case No. 6: 16-cv-00413-AC

)

FINDINGS AND RECOMMENDATION

)

)

V.

)

DON MILLS,

)
)

Respondent.

)

Oliver W. Loewy
Assistant Federal Public Defender
101 SW Main Street, Suite 1700
Portland, Oregon 97204
Attorney for Petitioner
Ellen F. Rosenblum
Attorney General
Nick M. Kallstrom
Assistant Attorney General
Department of Justice
1162 Court Street NE
Salem, Oregon 97301
Attorneys for Respondent

0
1 - FINDINGS AND RECOMMENDATION

Appendix, Page 19

Case 6:16-cv-00413-AC

Document 84

Filed 04/27/20

Page 2 of 19

A COSTA, Magistrate Judge.
Petitioner Timothy Thompson, an inmate at the Oregon State Penitentiary, brings this
habeas corpus action pursuant to 28 U.S.C. § 2254 and challenges his convictions and sentence for
Assault. For the reasons set forth below, the Second Amended Petition for Writ of Habeas Corpus
(#77) should be denied, and Judgment should be entered dismissing this action with prejudice.
Factual Background

On July 21, 2009, Hillsboro Police responded to an anonymous caller's report of a woman
screaming at Thompson's residence where he lived with his wife Susan and their three small
children. Hearing yelling and screaming, the officers knocked on the door. Thompson answered
the door and invited them in. The house was dark with the windows covered, there was little basic
furniture, and it was messy, dirty, and foul smelling. Officer Irvine took Thompson outside so
that Officer Slade could talk to Susan alone. Thompson admitted that he and Susan had had an
argument but denied hitting or touching her. Meanwhile, Officer Slade sensed something was not
right with Susan and saw evidence of a hand injury.

Insisting that it was their way of

communicating, Susan disclosed that Thompson had thrown her against the wall. Paramedics and
additional law enforcement came to the scene. Susan was too weak at this point to get up and put
her baby in his crib so that paramedics could examine her. They discovered that she had two
broken fingers.
Susan eventually described a spanking incident with a wooden stick that left her bruised to
the point she could not sit down right. Officers took photographs of the home and seized wooden
sticks. Paramedics took Susan to the emergency room ("ER").

Sergeant Case accompanied

Susan to the ER. She was in so much pain that she needed assistance to remove her clothing.

2 -FINDINGS AND RECOMMENDATION

Appendix, Page 20

Case 6:16-cv-00413-AC

Document 84

Filed 04/27/20

Page 3 of 19

Case testified that she observed "layers and layers" of bruising over the majority of Susan's legs,
thighs, and buttocks, and saw splits to the skin that Case compared to ove1Tipe fruit being struck.
Case testified that in all her years in law enforcement she had never seen bruising like that on
somebody who was still alive.
Dr. Alexander examined Susan in the ER. He testified that she had significant body-wide
injuries with bruises of various ages as shown by their different coloration. He attributed the
bruises to her being struck with an instrument that generated a lot of force. He also noticed
scabbing of various ages, which denoted multiple injuries over a longer period of time. He opined
that given the proximity of the injuries to Susan's bladder, spleen and kidneys, the blows could
have been lethal; he equated the injuries with those one might see in a vehicular or homicidal
trauma patient. He also noted fractures of various ages to Susan's left hand. Susan told Dr.
Alexander that she had experienced ongoing abuse for five years and that her cu1Tent injuries were
ongoing from the last two months. He testified that it was the most significant case of abuse he
had seen in twelve years of ER practice.
Officers arrested Thompson. In the patrol car after his arrest, he admitted to spanking
Susan with sticks. He stated it was the way they communicated and worked out their problems.
Officer Hahn, along with Detective Banks, later interviewed Thompson in the Washington County
Jail. He explained that the "games" he and Susan played were between two consenting adults and
that things had gone too far in the recent incident that led to his an-est. He described using a "love
paddle" and a switch from a tree to spank Susan. He denied preventing her from seeing her family
and insisted that her body had been bruise-free a few days prior to the interview.

3 - FINDINGS AND RECOMMENDATION

Appendix, Page 21

Case 6:16-cv-00413-AC

Document 84

Filed 04/27/20

Page 4 of 19

At trial, prosecutors called the grand jury foreperson, Lisa Kouzes. She testified that
Susan had been sincere in her testimony before the grand jury. Kouzes stated that the evidence
of abuse they heard was overwhelming both in the amount and severity of the beatings and that
they had been conservative in charging Thompson.
Despite Susan's earlier disclosures to law enforcement, medical professionals, and the
grand jury, she was a reluctant witness at trial. She admitted that she had been leaving messages
for prosecutors telling them that she loves Thompson and wants him back. She also met with
Thompson's defense attorney before trial.

Nevertheless, she testified that the abuse started a

couple of months ago (presumably a couple of months prior to Thompson's July 2009 arrest), and
she admitted that in April 2009 Thompson switched to hitting her with sticks because his shoulder
hurt from hitting her with a belt. She testified that after he started using sticks in April the beatings
occurred sometimes more than one time a week. She also confirmed that she had testified under
oath before the grand jury that when the beatings with the pieces of wood started in April they
occurred one-to-two times a week - if not daily - between April 2009 and Thompson's arrest.
Only for a two-to-three week period between the end of May into early June did the beatings stop,
only to then resume because Thompson "missed" it. She further testified that Thompson caused
all of the injuries shown in the photographs taken in the ER.
Laurie Wuthrich from child protective services testified that in her interview with Susan
on July 24, 2009, Susan told her that the abuse had been ongoing for the five years since she and
Thompson were matTied. Wuthrich also testified that Susan also revealed that Thompson hit her
with objects, including sticks, and made threats to kill her and her children.
\ \\ \ \

4 - FINDINGS AND RECOMMENDATION

Appendix, Page 22

Case 6:16-cv-00413-AC

Document 84

Filed 04/27/20

Page 5 of 19

Procedural Background

On July 27, 2009, the Washington County Grand Jury returned a secret indictment charging
Thompson with ten counts of Felony Assault in the Fourth Degree, fifteen counts of Assault in the
Second Degree, three counts of Criminal Mistreatment in the First Degree, and one count of
Unlawful Possession of Marijuana. Respondent's Exhibit 102. Following a bench trial, the
comi convicted Thompson on eight counts of Assault in the Second Degree, one count of Criminal
Mistreatment in the First Degree, and on a violation for marijuana possession. The court imposed
a sentence totaling 140 months. Respondent's Exhibit 101.
Thompson directly appealed his convictions and sentence. The Oregon Comi of Appeals
affirmed without opinion and the Oregon Supreme Court denied review. State v. Thompson, 249
Or. App. 334 (2012), rev. denied352 Or. 666, (2012). Respondent's Exhibits 103-107.
Thompson then filed a petition for post-conviction relief ("PCR") in state comi. The PCR
court denied relief.

Thompson v. Premo, Marion County Circuit Court Case No. 13C10603.

Respondent's Exhibit 116. On appeal, the Oregon Court of Appeals affamed without opinion
and the Oregon Supreme Comi denied review. Thompson v. Premo, 271 Or. App. 863 (2015),
rev. denied 358 Or. 249 (2015). Respondent's Exhibits 117-121.

On March 7, 2016, Thompson filed this action. His grounds for relief as set forth in his
Second Amended Petition are as follows:
1. Ground One:

Respecting Counts 18-22 and Count 24, the indictment was
insufficiently specific and the trial evidence was insufficient to prove guilt beyond a
reasonable doubt, in violation of Thompson's Fourteenth Amendment right to due
process and his Fifth Amendment right against double jeopardy; 1

1

Thompson does not challenge his Assault in the Second Degree convictions on Counts 23 and
25, which encompass the date of his arrest and another report by Susan that she sustained injuries
to her hip and hand five days earlier on July 16, 2009. Moreover, in his supporting briefs,
5 - FINDINGS AND RECOMMENDATION

Appendix, Page 23

Case 6:16-cv-00413-AC

Document 84

Filed 04/27/20

Page 6 of 19

2. Ground Two: The State intimidated its key witness to testify falsely and the
prosecution failed to disclose the intimidation to the defense, all in violation of
Thompsons right to due process as guaranteed by the Fourteenth Amendment;
3. Ground Three: Thompson's trial and direct appeal counsel rendered ineffective
assistance in failing respectively to move to acquit Thompson on double jeopardy and
due process grounds and in failing to seek relief on appeal on double jeopardy and due
process grounds; and
4. Ground Four: The cumulative effect of the prejudicial errors made in Thompson's
case mandate that his convictions and sentence be vacated.
Respondent asks the Court to deny relief on the Petition because Claim One was correctly
denied on the merits in a state court decision that is entitled to deference, and because the remaining
claims are procedurally defaulted and lack merit.
Discussion

I.

Exhaustion and Procedural Default
A.

Standards

Under the Antiterrorism and Effective Death Penalty Act of 1996 ("AEDP A"), a writ of
habeas corpus cannot be granted unless it appears that the petitioner has exhausted all available
state comi remedies. 28 U.S.C. §2254(b)(l); see also Coleman v. Thompson, 501 U.S. 722, 111
(1991). To exhaust state remedies, the petitioner must fairly present his claims to the state's
highest court in a procedurally appropriate manner. A claim is fairly presented if the petitioner
has described the operative facts and the federal legal theory on which his claim is based.

Thompson does not argue the merits of his deficient indictment claim. As such, he has not met
his burden of proof with respect to that claim, and the cou1i finds it is waived. See Renderos v.
Ryan, 469 F.3d 788, 800 (9th Cir. 2006)(holding that petitioner waived claims in petition for writ
of federal habeas corpus where counsel did not attempt to set f01ih the legal standards for such
claims or attempt to meet them).
6 -FINDINGS AND RECOMMENDATION

Appendix, Page 24

Case 6:16-cv-00413-AC

Document 84

Filed 04/27/20

Page 7 of 19

Anderson v. Harless, 459 U.S. 4, 6, (1982). He must clearly alert the state court that he is alleging
a specific federal constitutional violation. See Casey v. Moore, 386 F.3d 896, 913 (9th Cir. 2004).
He must make the federal basis of the claim explicit either by citing specific provisions of federal
law or federal cases, even if the federal basis of a claim is 'self-evident, Gatlin v. Madding, 189
F.3d 882, 888 (9th Cir. 1999), or by citing state cases that explicitly analyze the same federal
constitutional claim, Peterson v. Lampert, 319 F.3d 1153, 1158 (9th Cir. 2003)( en bane).
If the petitioner presents claims in state court but that court finds them defaulted on state

procedural grounds, a federal habeas comi will find them procedurally defaulted so long as the
state procedural bar was independent of federal law and adequate to warrant preclusion of federal
review. See Harris v. Reed, 489 U.S. 255,262 (1989). Although federal courts retain the power
to consider the merits of procedurally defaulted claims, they will not review the merits of a
procedurally defaulted claim unless the petitioner demonstrates cause for his failure to exhaust the
claim in state court and prejudice from the alleged constitutional violation, or shows that a
fundamental miscarriage of justice would result if the federal court did not reach the merits of the
claim. Coleman, 501 U.S. at 750.
While Coleman held that ineffective assistance of counsel in post-conviction proceedings
does not establish cause for the procedural default of a claim, the Cami announced a new, naiTow
exception to that rule in Martinez v. Ryan, 566 U.S. 1, 17 (2012):
Where, under state law, claims of ineffective assistance of trial counsel must be raised in
an initial-review collateral proceeding, a procedural default will not bar a federal court
from hearing a substantial claim of ineffective assistance at trial if, in the initial-review
collateral proceeding, there was no counsel or counsel in that proceeding was ineffective.

\\\\\

\\ \\ \
7 - FINDINGS AND RECOMMENDATION

Appendix, Page 25

Case 6:16-cv-00413-AC

Document 84

Filed 04/27/20

Page 8 of 19

Accordingly, to demonstrate cause and prejudice under Martinez sufficient to excuse the
procedural default of an ineffective assistance of trial counsel claim, a petitioner must make two
showings:
First, to establish "cause," he must establish that his counsel in the state post-conviction
proceeding was ineffective under the standards of Strickland. 2 Strickland in turn, requires
him to establish that both (a) post-conviction counsel's performance was deficient, and (b)
there was a reasonable probability that, absent deficient performance, the result of the postconviction proceedings would have been different.
Clabourne v. Ryan, 745 F.3d 362, 377 (9th Cir. 2014), ovenuled on other grounds. Determining

whether there was a reasonable probability of a different outcome "is necessarily connected to the
strength of the argument that trial counsel's assistance was ineffective." Id. at 377-78.
And second, to establish prejudice under Martinez, a petitioner must show that the
ineffective assistance of trial counsel claim was "substantial" or had "some merit." A claim is
substantial if it meets the standard for the issuance of a certificate of appealability, Martinez, 566
U.S. at 14, that is, "reasonable jurists could debate whether (or, for that matter agree that) the
petition should have been resolved in a different manner or that the issues presented were adequate
to deserve encouragement to proceed further."

Miller-El v. Cockrell, 537 U.S. 322, 336

(2003)(citations and internal quotations omitted). A comi should conduct a "general assessment
of the merits" of the underlying ineffective assistance claim to determine whether counsel's
performance fell below an objective standard of reasonableness and that the deficiency prejudiced
the petitioner. Notably, the court should measure this by the prevailing professional norms at the
time of representation. Moreover, "the inquiry of counsel's performance under Strickland is
'highly deferential,' the court 'must indulge a strong presumption that counsel's conduct falls

2

Strickland v. Washington, 466 U.S. 668 (1984).

8 -FINDINGS AND RECOMMENDATION

Appendix, Page 26

Case 6:16-cv-00413-AC

Document 84

Filed 04/27/20

Page 9 of 19

within the wide range of reasonable professional assistance,' and 'the defendant must overcome
the presumption that, under the circumstances, the challenged action might be considered sound
trial strategy."' Ramirez v. Ryan, 937 F.3d 1230, 1243 (9th Cir. 2019)(quoting Strickland, 466
U.S. at 688-89). In Ramirez, the court first examined the question of whether the underlying
ineffective assistance claim was substantial and then evaluated PCR counsel's performance under
Strickland.
B.

Analysis

Petitioner failed to fairly present Claims Two through Four to the Oregon courts. He
concedes that these claims are procedurally defaulted, but indicates that Martinez should excuse
their default, including the default of his ineffective assistance of trial and appellate counsel claims
(Claim Three). Critically, however, Martinez cannot excuse the default of either trial court error,
prosecutorial misconduct, or ineffective assistance of appellate counsel claims. See Davila v.
Davis, 137 S. Ct. 2058, 2063 (2017)(observing that Martinez does not apply to underlying claims

of ineffective assistance of direct appellate counsel, but only to procedurally defaulted claims of
ineffective assistance of trial counsel).

Accordingly, Martinez cannot excuse the default of

Claims Two, Four, and that portion of Claim Three pe1iaining to Thompson's direct appellate
counsel.
Moreover, a review of the record and the analysis of Claim One (see below) reveals that
any claim of ineffective assistance of counsel for failing to base a motion for judgment of acquittal
on double jeopardy and due process grounds, is not substantial under Martinez. At a minimum,
given the arguments counsel presented to the trial comi, it is evident that any failure on counsel's
part to base his motions for judgment of acquittal specifically on due process and double jeopardy

9 - FINDINGS AND RECOMMENDATION

Appendix, Page 27

Case 6:16-cv-00413-AC

Document 84

Filed 04/27/20

Page 10 of 19

did not prejudice Thompson. 3 Accordingly, Claims Two through Four should be denied as
procedurally defaulted.
Alternatively, even on de novo review, the ineffective assistance of trial counsel claim set
fmih in Claim Three should be denied on its merits.
II.

Merits
A.

Standard of Review

An application for a writ of habeas corpus shall not be granted unless adjudication of the
claim in state court resulted in a decision that was: (1) "contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the Supreme Court of the United
States," or (2) "based on an unreasonable determination of the facts in light of the evidence
presented in the State court proceeding." 28 U.S.C. § 2254(d). A state court's findings of fact
are presumed correct, and Petitioner bears the burden of rebutting the presumption of c01Tectness
by clear and convincing evidence. 28 U.S.C. § 2254(e)(l).
A state court's decision is 'contrary to ... clearly established precedent if the state court
applies a rule that contradicts the governing law set forth in [the Supreme Comi's] cases" or "if
the state court confronts a set of facts that are materially indistinguishable from a decision of the
Comi and nevertheless anives at a result different from [that] precedent." Williams v. Taylor,
529 U.S. 362, 405-06 (2000). Under the "unreasonable application" clause, a federal habeas comi
may grant relief "if the state court identifies the correct governing legal principle from [the

3

For example, counsel argued: "You can't just assume, well, it happened this one day, and so
there is repeated conduct of this nature and physical injury occuned this other day. And so the
State has not canied their burden [i]n that respect." Transcript of State Comi Proceedings [21] at
253.
10 -FINDINGS AND RECOMMENDATION

Appendix, Page 28

Case 6:16-cv-00413-AC

Document 84

Filed 04/27/20

Page 11 of 19

Supreme Court's] decisions but unreasonably applies that principle to the facts of the prisoner's
case." Id. at 413. The "unreasonable application" clause requires the state court decision to be
more than incorrect or erroneous. Id. at 410. 28 U.S.C. § 2254(d) "preserves authority to issue
the writ in cases where there is no possibility fair minded jurists could disagree that the state court's
decision conflicts with the Courts precedents. It goes no fa1iher." Harrington v. Richter, 562
U.S. 86, 102 (2011).
When a state court reaches a decision on the merits but provides no reasoning to supp01i
its conclusion, the federal habeas court must conduct an independent review of the record to
determine whether the state comi clearly erred in its application of Supreme Comi law. Delgado

v. Lewis, 223 F.3d 976, 982 (9th Cir. 2000). In such an instance, although the comi independently
reviews the record, it still lends deference to the state comi's ultimate decision and can grant
habeas relief only if the state comi's decision was objectively unreasonable. Richter, 562 U.S. at
98; Pirtle v. Morgan, 313 F.3d 1160, 1167 (9th Cir. 2002).
B.

Analysis

Citing Jackson v. Virginia, 443 U.S. 307 (1979), and Valentine v. Konteh, 395 F.3d 626,
634-35 (6th Cir. 2005), Thompson alleges in Claim One that the trial evidence was insufficient to
prove guilt beyond a reasonable doubt, in violation of his due process rights and his right against
double jeopardy. Specifically, he contends that the state failed to introduce evidence tying any
particular injury Susan sustained to any paiiicular incident, such that the subject six incidents of
Assault in the Second Degree could be proven beyond a reasonable doubt. He contends that the
state introduced only general statements of abuse and medical records describing the injuries and
depicting them in photographs.

Moreover, even assuming six assaults occurred, Thompson

11 - FINDINGS AND RECOMMENDATION

Appendix, Page 29

Case 6:16-cv-00413-AC

Document 84

Filed 04/27/20

Page 12 of 19

maintains that the state presented no evidence that he used a piece of wood on each specified date.
And finally, he argues that the state failed to present evidence that Thompson caused "physical
injury" on any of the particularly charged date ranges.
Importantly, there is a "heavy burden" on a petitioner challenging a conviction for
sufficiency of evidence on federal due process grounds. Juan H v. Allen, 408 F.3d 1262, 1274
(9th Cir. 2005). A federal habeas court reviews challenges to the sufficiency of the evidence by
determining whether in "viewing the evidence in the light most favorable to the prosecution, any
rational trier of fact could have found the essential elements of he crime beyond a reasonable
doubt." Lewis v. Jeffers, 497 U.S. 764, 781 (1990)(citations omitted). "A reviewing court must
consider all of the evidence admitted by the trial court, regardless of whether that evidence was
admitted enoneously."

McDaniel v. Brown, 558 U.S. 120, 131 (2010).

Sufficiency of the

evidence claims raised in § 2254 proceedings must be measured with reference to substantive
requirements as defined by state law. Jackson, 443 U.S. at 324 n.16. In cases where the evidence
is unclear or would support conflicting inferences, the federal court "must presume-even if it does
not affirmatively appear in the record-that the trier of fact resolved any such conflict in favor of
the prosecution, and must defer to that resolution." Id. at 326. To prevail here, petitioner must
show that the prosecution's case against him was so lacking that the trial court should have entered
a judgment of acquittal. McDaniel, 558 U.S. at 131.
In addition, AEDP A adds another layer of deference over the already deferential Jackson
standard. Under AEDP A, the federal court may not grant a habeas petition unless it finds that the
state court umeasonably applied the principles underlying the Jackson standard when reviewing
the petitioner's claim. See e.g., Jaun H, 408 F.3d at 1275 n. 12; Jones v. Wood, 114 F.3d 1002,

12 -FINDINGS AND RECOMMENDATION

Appendix, Page 30

Case 6:16-cv-00413-AC

Document 84

Filed 04/27/20

Page 13 of 19

1013 (9th Cir. 1997)(recognizing that the "unreasonable application" standard applies to
insufficient evidence claim).
In denying Thompson's motion for judgment of acquittal on Counts 18-25, the trial court
made the following factual findings and legal conclusions:
THE COURT: Okay. Well, last night after you all left I stayed here until about seven
o'clock. I relistened to the - Ms. Thompson's testimony. I also relistened to the grand
jury foreman, Ms. Kouzes' testimony. * * * I reviewed the medical records, and I also
reviewed the doctor's testimony because I knew this was coming.

***
[Referencing testimony from Kouzes regarding Susan's statements to the grand jury, the
court stated:] [Susan] says that it happened every day - it happened every day one week
without - and there was a week or so without a beating, and that - the only time we hear
about this absence of beating is when she's - when we're talking about the Assault II
charges, not the Assault IV charges. So that happening every -once a week, and that's
how the Assault II charges are drafted, makes me think that she was talking about the
Assault II, the stick incidents, because it doesn't connect up otherwise.

***
[From the medical records, court noted:] DHS and police talking with patient. Severe
bruising, hematomas present on bilateral legs, wrists, hands and buttocks. Patient states
there has been ongoing abuse for five years. Current injuries ongoing for last two months.
Children were present in the house during assault. Patient states husband was striking her
with branches from an apple tree. * * * So I know from the medical records that it's been
going on for five years and that the bruising and injuries that she has were from the last
two months, and that has to do with the Assault II, not the Assault IV' s.

***
[W]hen I turn to the restraining order, I have an incident that talks about July 21st, I have
an incident that talks about July 16th , and then I have this statement: "The physical abuse
was daily, weekly, continuously. He made sure that bruises were only on my legs, hips,
and where my clothing would cover it."

***
It was clear that she -from all of this that I've been talking about that the defendant caused
all of her injuries while she was at the hospital, that beginning April of '09 she was beat at
13 -FINDINGS AND RECOMMENDATION

Appendix, Page 31

Case 6:16-cv-00413-AC

Document 84

Filed 04/27/20

Page 14 of 19

least once, maybe a couple times a week, she said yes to that, and she said except for that
two- or three-week period of time at the end of May.
Now, the next question is that again we have no evidence concerning the actual incidences
that caused the physical injury, like for instance we don't know what injury was caused
between April 1st, 2009 to April 5th , 2009, we have no idea. We have no idea what injury
was caused between April 6111, 2009 and April 11 1h, 2009, and so f01ih and so on.
However, we do have photographs that were taken from the hospital, and we do know from
the medical records that those injuries were the injuries that were caused over the last two
months, and it can be inferred clearly that those injuries that were reflected in the medical
records and the photographs caused her physical injury.
So it seems the State has met its burden with regard to the Assault in the Second Degrees
staiiing with Count 18, May 18 th through May 24t11, would be the two months prior to the
time she goes to the hospital where there are facts that are articulated that supp01i each and
every charge once a week. 4
Transcript of State Cami Proceedings [21], pp. 261-71.
In addition, in finding Thompson guilty on the subject assault counts, the court found:
[T]here was testimony from the grand jury and testimony from Ms. Thompson that this
abuse occmTed weekly, so I find that there was sufficient evidence to prove beyond a
reasonable doubt that this occuned weekly from May 18 th , 2009, except for the break in
time between Count 18 and Count 19, and therefor through Count 25.
The next issue that is - we have to show is whether or not defendant intentionally caused
physical injury to Susan Thompson. There's no question in my mind that this was
4

The trial court granted Thompson's Motions for Judgment of Acquittal on 17 Assault Counts
pertaining to allegations of Thompson beating Susan with a belt (Counts 1-10 Assault in the Fourth
Degree) and of him beating her with a wooden stick from April 1, 2009 through May 17, 2009
(Counts 11-17). Regarding to the beatings with the belt, the trial comi stated that while there was
clearly abuse going on, he did not have the facts he needed to say beyond a reasonable doubt that
these incidents occurred as charged. He found there was no evidence of how frequently the
beatings with the belt occuned or evidence suppo1iing allegations that the beatings took place two
times a month. Similarly, while the judge found evidence that beginning in April 2009 Thompson
beat Susan with sticks at least one time a week until his arrest (save a brief period starting at the
end of May into early June) regarding the early April to mid-May beatings with sticks (Counts 1117), the judge found that there was no evidence concerning the actual incidences that caused the
physical injury. He contrasted those charges with the later ones linked to injuries reported by
Susan and described in medical records and the photographs of Susan's injuries taken at the
hospital. Transcript of State Cami Proceedings [21 ], pp. 261-71.
14 -FINDINGS AND RECOMMENDATION

Appendix, Page 32

Case 6:16-cv-00413-AC

Document 84

Filed 04/27/20

Page 15 of 19

intentional behavior. * * * This is strictly just sadistic behavior, and the defendant did cause
physical injury to Ms. Thompson, and the reason why I say that is because the medical
records are quite clear that - and Dr. Alexander's testimony is quite clear that the injuries
were blunt trauma, and that the injuries were ongoing for the last two months per Ms.
Thompson, and that this was consistent with the injuries. * * * Physical injury means
substantial pain or impairment of physical condition. Defendant testified that he hit her
hard. There's no question that being hit hard with those types of sticks that were in
evidence, or similar sticks, or switches, certainly would cause physical injury.* * * There's
a dispute whether or not these were the same sticks that were used for all of the Counts 18
through 25 and whether those sticks were considered dangerous weapons, but if you look
at the injuries that are reflected over the last couple of months, anything that would cause
those types of injuries would be I believe dangerous weapons, and I'm making that
inference.
So I'm finding the defendant guilty of Assault in the Second Degree on Counts 18 through
25.
Id. at 328-31.

Thompson's reliance on Valentine v. Konteh, 395 F.3d 626 (6th Cir. 2005), to support his
arguments that lack of sufficient trial proof violated his right to due process and to be free from
double jeopardy, are unavailing. In Valentine, the defendant was indicted on 20 counts ofrape of
a minor and 20 counts of felonious sexual penetration of a minor. All 20 rape counts were worded
identically with one another; likewise, all 20 penetration counts were worded identically with one
another. Each count alleged that the offense had occurred "between March 1, 1995 and January
16, 1996." At trial, the young victim testified that the defendant had raped her about 20 times and
digitally penetrated her about 15 times. No dates were given for any of these incidents, nor were
any other specific facts given whereby the trier of fact might have identified specific incidents.
The defendant was convicted of 20 counts of rape and sexual penetration, although a comi of
appeals reversed five convictions for penetration. Valentine at 628-29.
The Sixth Circuit determined that the accused in Valentine had been denied due process
and was entitled to habeas relief. It explained that an indictment satisfies due process only "if it
15 -FINDINGS AND RECOMMENDATION

Appendix, Page 33

Case 6:16-cv-00413-AC

Document 84

Filed 04/27/20

Page 16 of 19

(1) contains the elements of the charged offense, (2) gives the defendant adequate notice of the

charges, and (3) protects the defendant against double jeopardy." Id. at 631.
Valentine held that the indictment in that case failed to give constitutionally adequate notice

of the charges:
[T]he constitutional error in this case is traceable * * * to the fact that there is no
differentiation among the counts. * * * [I]f prosecutors seek multiple charges against a
defendant, they must link those multiple charges to multiple identifiable offenses. * * *
Courts cannot uphold multiple convictions when they are unable to discern the evidence
that supports each individual conviction.
395 F.3d at 636-37.
For similar reasons, the state's failure in Valentine to differentiate the charges, either in the
indictment or at trial, also failed to protect the defendant against the possibility of double jeopardy.
"We cannot be sure what double jeopardy would prohibit because we cannot be sure what factual
incidents were presented and decided by the jury." Id. at 635.
As an initial matter, even if the facts here were analogous to those presented in Valentine,
the Ninth Circuit has not adopted that comi's reasoning, nor does that reasoning control the
resolution of this case. Regardless, this case is factually distinguishable from Valentine largely
because the trial judge, sitting as fact finder, aiiiculated which counts the state was able to prove
beyond a reasonable doubt and why. And as is supported by the record, the judge carefully
outlined what the state's evidence at trial showed: (1) the beatings with wood sticks occmTed at
least one time a week as charged in the indictment; (2) Thompson caused all of Susans injuries
seen at the hospital and those injuries were ongoing for the last two months prior to his arrest in
July 2009; (3) Thompson intentionally caused Susan physical injury - he testified that he hit her
hard and as the court found, "[t]here is no question that being hit hard with those types of sticks

16 -FINDINGS AND RECOMMENDATION

Appendix, Page 34

Case 6:16-cv-00413-AC

Document 84

Filed 04/27/20

Page 17 of 19

that were in evidence, or similar sticks, or switches, certainly would cause physical injury"; and
(4) the sticks were "dangerous weapons" in that they were capable of and came close to actually
causing Susan serious physical injury. Finally, as noted above, the trial court granted Thompson's
motions for judgment of acquittal on 17 Counts of Second and Fourth Degree Assault due to
insufficient evidence. In carefully examining these counts and granting Thompson's motions on
all pre-May 18, 2009 assault counts, despite the court having "no doubt that there [was] abuse
going on," it demonstrated its understanding of and commitment to holding the state to its burden
to prove beyond a reasonable each element of the remaining charges.
Accordingly, on these facts, it cannot be said that "there was no differentiation among the
counts," or that the record does leaves the court "unable to discern the evidence that supp01is each
individual conviction." Id. at 636-37.
Despite his argument "that because no evidence tied any particular physical injury to any
particular incident, there was insufficient evidence that there were six incidents of second degree
assault as charged in Counts 18-22 and 24," Thompson cannot demonstrate that the trial comi
unreasonably applied Jackson when it concluded on the evidence summarized above that there
was sufficient evidence to prove the elements of each of these counts beyond a reasonable doubt.
Due process does not require, and prohibitions against double jeopardy do not mandate, that to
suppo1i these convictions a victim of severe and unrelenting abuse such as Susan, for whom a
couple of weeks without a severe beating stood out as the anomalous, memorable event, had to
catalogue the exact implement used in each beating, quantify how much pain she experienced
during each beating, and identify which bruise, split or scab of the "layers" of injuries on her body
the beating caused. Susan was clear that Thompson beat her with a wood stick or implement at

17 - FINDINGS AND RECOMMENDATION

Appendix, Page 35

Case 6:16-cv-00413-AC

Document 84

Filed 04/27/20

Page 18 of 19

least once a week during the relevant time period, and that the visible injuries on her body were
ongoing for the two months prior to Thompson's anest. In addition, the record supports the trial
court's finding that Susan's repo1iing was consistent with and c01rnborated by her disclosures to
law enforcement and medical professionals, her medical records, and the photographs of her
injuries taken at the hospital.
Based on the foregoing, and having conducted an independent review of the record, the
court concludes that Thompson cannot demonstrate that the Oregon court's denial of this due
process claim was contrary to or involved an unreasonable application of Jackson, or that it was
based on an unreasonable determination of the facts in light of the evidence presented in State
court.
Recommendation

For the foregoing reasons, the Second Amended Petition for Writ of Habeas Corpus (#77)
should be DENIED, and judgment should enter DISMISSING this case with prejudice.

A

certificate of appealability should be DENIED.
Scheduling Order

The Findings and Recommendation will be refened to a district judge. Objections, if any
are due in 14 days. If no objections are filed, then the Findings and Recommendation will go
under advisement on that date.
A party my respond to another paiiy's objections within 14 days after the objections are
filed. If objections are filed, review of the Findings and Recommendation will go under
\ \ \ \\

\ \ \ \\
18 - FINDINGS AND RECOMMENDATION

Appendix, Page 36

Case 6:16-cv-00413-AC

Document 84

Filed 04/27/20

Page 19 of 19

advisement upon receipt of the response, or the latest date for filing a response.
IT IS SO ORDERED.
DATED this~/7.y of April, 20

)

John V. Acosta
States Magistrate Judge

19 -FINDINGS AND RECOMMENDATION

Appendix, Page 37

